                                        SOCIAL SECURITY
MEMORANDUM

Date:      November 17, 2009                                                      Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Office of Operations’ Staffing Plans Under the American Recovery and
           Reinvestment Act of 2009 (A-09-09-29157)


           The attached final report presents the results of our review. Our objective was to
           assess the Office of Operations’ staffing plans associated with funds provided under the
           American Recovery and Reinvestment Act of 2009.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                            Patrick P. O’Carroll, Jr.

           Attachment
QUICK RESPONSE
 EVALUATION


The Office of Operations’ Staffing
   Plans Under the American
 Recovery and Reinvestment Act
          A-09-09-29157




                .
         November 2009
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                          Background
OBJECTIVE
Our objective was to assess the Office of Operations’ (Operations) staffing plans 1
associated with funds provided under the American Recovery and Reinvestment Act of
2009 (ARRA). 2

BACKGROUND
ARRA provided the Social Security Administration (SSA) an additional $500 million to
process disability and retirement workloads. Of that, $40 million may be used for health
information technology research and activities to facilitate the adoption of electronic
medical records in disability claims. 3 ARRA funds will help SSA address increasing
disability and retirement workloads caused by a combination of the economic downturn
and the leading edge of the baby boomer retirements. SSA estimates that in Fiscal
Year (FY) 2009, disability and retirement claims will increase by 600,000 from FY 2008.

At the time of our review, Operations had been allocated $251 million of SSA’s ARRA
funds. The remaining $249 million was allocated to State disability determination
services, to the Office of Disability Adjudication and Review, and for information
technology improvements. Operations is using its ARRA funds to process disability and
retirement workloads in SSA field offices, program service centers, and teleservice
centers and hired 1,531 new employees. Operations plans to use ARRA funds for
overtime work by SSA employees.

The Office of Management and Budget (OMB) issued guidance on spending and
accounting for ARRA funds. Specifically, OMB requires agency-wide and program-
specific plans regarding ARRA spending. These plans must include the program
purpose, types of activities and projects that will be performed, a funding table showing
the obligation and outlay timing, the major milestones and completion dates, the
agency’s monitoring process, performance measures to test effectiveness, and a
description of how the agency will make the information available to the public. 4




1
 For purposes of this report “staffing plans” means SSA’s planned use of ARRA funds to hire new
employees and perform overtime to address the increasing disability and retirement workloads.
2
    Pub. L. No. 111-5, Division A, Title VIII (H.R. 1-71 to H.R. 1-72).
3
    Id.
4
 OMB M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009,
February 18, 2009, and M-09-15, Updated Implementing Guidance for the American Recovery and
Reinvestment Act of 2009, April 3, 2009, Sections 2.7, 2.8 and Appendix 3.

The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)                               1
To perform this review, we interviewed SSA employees from the Offices of Operations
and Budget, Finance and Management. We also reviewed SSA’s Agency-wide and
program-specific ARRA plans to evaluate its efforts to implement and administer the
$251 million allocated to Operations.




The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)                   2
                                                            Results of Review
Operations developed an appropriate plan for its $251 million in ARRA funds to process
disability and retirement workloads. At the time of our review, Operations had already
hired 1,531 employees in front-line positions who will be trained to process disability
and retirement workloads. In addition, Operations planned to use approximately
$53 million of its ARRA funds for employees to work overtime to process disability and
retirement workloads. However, we identified the following matters for attention to
ensure ARRA funds are properly accounted for and efficiently used, and their benefits
fully disclosed.

•   SSA uses a cost allocation methodology that charges ARRA funds based on the
    average workyear cost to process disability and retirement workloads. The charges
    based on this methodology are approximately $195 million. However, the actual
    costs of the 1,531 new employees’ salaries and benefits will only be approximately
    $101 million.

•   SSA did not disclose the cost of training time. We believe SSA’s workload plan
    should separately disclose the estimated $18 million in training costs since it is time
    spent in training rather than processing disability and retirement workloads.

•   The performance measures did not identify all the anticipated benefits of the ARRA
    funds.

OPERATIONS’ PLANNED USE OF ARRA FUNDS

Operations planned to use its $251 million in ARRA funds to hire 1,531 employees and
for overtime work by employees. This includes about $89 million in FY 2009 and
$162 million in FY 2010.

      Fiscal Year                 New Hires                   Overtime                    Total
         2009                      $ 63 million               $26 million               $89 million
         2010                      135 million                 27 million               162 million
         Total                    $198 million                $53 million              $251 million

Operations determined where the 1,531 new hires would be placed based on several
factors, including projected workload volume, national and regional level productivity,
Agency plans for discretionary workloads (such as Supplemental Security Income [SSI]
redeterminations and continuing disability reviews), 5 the number of permanent staff on-
duty, projected attrition, and unique staffing shortages within specific regions. The


5
  A redetermination is a review of a recipient’s non-medical eligibility factors (that is, income, resources,
and living arrangements) to determine whether the recipient is still eligible for and receiving the correct
SSI payment. A continuing disability review is an evaluation to determine whether an individual continues
to be disabled.

The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)                                         3
needs of all Operations’ components were considered, including field offices, the
national 800-number network (teleservice centers), program service centers, and the
Office of Central Operations.

The regional offices determined where their share of the new hires would be placed
based on where employees were most needed in their respective region. The primary
factors included workload projections, pending workloads, and office staffing levels.
The following table shows Operations’ planned new hires by region and by type of
office.

                                      Field       Program Service         Teleservice
            SSA Region               Offices          Centers              Centers             Total
    Boston                                24               N/A                   0                24
    New York                              79                16                   9              104
    Philadelphia                        120                  0                  22              142
    Atlanta                             364                  0                  32              396
    Chicago                             167                  7                   7              181
    Dallas                              152                  0                  14              166
    Kansas City                           20                33                   0                53
    Denver                                25               N/A                   4                29
    San Francisco                       194                 35                   0              229
    Seattle                               38               N/A                  13                51
    Office of Central Operations 6       N/A               156                   0               156
    Total                              1,183               247                 101             1,531

ARRA FUNDS NEEDED FOR NEW HIRES

We found that SSA’s cost allocation methodology for the 1,531 new employees will
result in ARRA funds being charged approximately $94 million 7 ($33.5 million for
FY 2009 and $60.5 million for FY 2010) over the estimated salaries and benefits
expected to be incurred for these new employees. This occurred because SSA
allocated ARRA funds based on an average salary and benefits for all Operations
employees. However, the average salaries for the new hires were much lower than the
average for all Operations employees. Specifically, SSA’s Office of Budget used an
average annual salary and benefits total of $85,000, which is substantially more than
the average of $47,487 for new employees in SSA’s highest locality pay area and
$40,517 in the lowest locality pay area. SSA indicated that it uses this cost
methodology because it believes it better reflects the cost of the work processed.

As shown in the following table, we estimate that about $94 million (47.5 percent) of the
$198 million budgeted for salaries and benefits for FYs 2009 and 2010 will not be used
to pay the salaries of new hires. According to SSA’s estimate, the actual salaries and

6
 The Office of Central Operations is located in SSA’s Headquarters complex in Baltimore, Maryland. The
156 positions include 103 related to program service center operations, 46 for earnings-related
workloads, and 7 for claims-related workloads.
7
 This estimate is based on the average total difference in FYs 2009 and 2010 of salaries and benefits
using the highest and lowest salary locations—$86 million and $102 million, respectively.

The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)                                     4
benefits for the new hires will be approximately $109 million. We believe SSA’s
estimate is high, and expect the actual costs will be between $93 and $109 million.

                                                    Years of                           Difference in
                                  Average            Salary              Total        ARRA Charges
                    Number        Annual           Payments            Estimated        and Actual
        Cost        of New       Salary and      (April 2009 thru     Cost of New      Salaries and
        Basis        Hires        Benefits       September 2010)         Hires           Benefits
    SSA Budget
    Estimate          1,531        $85,000          1 ½ years          $195 million        N/A
    Average
    New Hire
    (highest
    locality pay)     1,531        $47,487          1 ½ years          $109 million    $86 million 8
    Average
    New Hire
    (lowest
    locality pay)     1,531        $40,517          1 ½ years           $93 million    $102 million9

     Transparency and Accountability of ARRA Funds - We believe SSA should disclose
its cost allocation methodology, the costs of new hires, and any overtime for processing
disability and retirement workloads funded from the ARRA appropriation. SSA is
charging salary and benefits to the ARRA appropriation beyond the costs incurred for
new hires. As of August 2009, SSA’s disability and retirement workload plan did not
disclose how it was allocating costs from the ARRA appropriation. During the course of
our review, we advised SSA that it should provide improved transparency and disclose
its cost allocation methodology. SSA’s workload plan should also disclose the impact of
charging the average salary and benefits of all Operations employees compared to the
actual costs of new hires. SSA agreed with our recommendation to improve
transparency and revised its disability and retirement workload plan accordingly (See
Appendix D). SSA’s workload plan can also be found at www.ssa.gov/recovery and
www.recovery.gov.

TRAINING REQUIREMENTS FOR NEW HIRES

The 1,531 new employees hired to process disability and retirement workloads will need
training to perform their jobs. This includes classroom and on-the-job training with
mentors. During training, the new employees will not make significant contributions to
SSA’s productivity goals. As a result, SSA will not realize the benefits of hiring these
employees until they have completed their training and gained experience. In addition,
Operations will use experienced employees to train the new hires. Operations hired
employees in the following positions:

•     service representatives who provide information to, and assist, claimants and
      beneficiaries with various disability and retirement matters,

8
    Of this amount, $31 million is from FY 2009 and $55 million is from FY 2010.
9
    Of this amount, $36 million is from FY 2009 and $66 million is from FY 2010.

The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)                                    5
•    claims representatives who process disability and retirement claims,
•    claims and benefit authorizers who process claims and post-entitlement actions for
     current beneficiaries,
•    teleservice representatives who provide information to callers to SSA’s national
     800-number network, and
•    miscellaneous earnings positions to process earnings-related workloads.

The following table shows the amount of training required for each position and the
estimated ARRA funds that will be used to train the new hires.

                                                    Average
                                                    Annual                                 ARRA Funds
                                  Number of        Salary and          Length of            to be Used
      Position Type               Employees        Benefits 10        Training 11           on Training
Service Representative                631           $36,767            3 months               $5.8 million
Claims Representative                 559            41,503            3 months                5.8 million
Benefit Authorizer                    143            40,909            8 months                3.9 million
Claims Authorizer                      51            43,697          6 to 8 months             1.3 million
Teleservice Representative            101            39,604            3 months                1.0 million
Other                                  46            34,783       5 days to 3 months           0.2 million
Total                               1,531                                                  $18.0 million

To fully disclose the use of ARRA funds, we believe SSA’s workload plan should
disclose the estimated $18 million in training costs separately, since it is time spent in
training rather than processing disability and retirement workloads.

MEASURING PERFORMANCE RESULTS OF ARRA FUNDING

The 1,531 Operations employees hired under ARRA and employees who work overtime
will process a wide range of disability and retirement workloads. However, SSA’s
Disability and Retirement Workload plan 12 has only one performance measure for
Operations—the number of retirement and survivors claims processed. SSA officials
stated that OMB approved the Agency’s plan to have only this one measure. As a
result, SSA does not plan to report to the public the full benefit of the ARRA funds
provided to SSA.



10
  This estimate is based on the salaries and benefits paid to new hires in each of these positions in a
mid-range salary location.

11
  This is the approximate length of training for each position. However, some regions differed in the
amount of training provided.

12
 SSA’s Disability and Retirement Workload plan for the ARRA funds can be found at SSA’s internet
Web site, www.socialsecurity.gov/recovery/Report_Plan/DisabilityandRetirementWorkloadPlan.pdf.


The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)                                       6
OMB’s guidance requires that agency Recovery Program Plans include performance
measures that reflect expected quantifiable outcomes that are consistent with the intent
and requirements of the legislation. 13 The OMB guidance also states that the measures
currently used to report an Agency’s program performance in relation to the ARRA
goals should be retained (in terms of incremental change against the present level of
performance of related agency programs or projects/activities specified in the plan). 14
Finally, one of the accountability objectives in the OMB guidance is that the use of all
funds are to be transparent to the public, and the public benefits of these funds are
reported clearly, accurately, and in a timely manner. 15

SSA’s 2008 Performance and Accountability Report contains 26 performance measures
that track SSA’s progress in meeting its goals and objectives. This includes the
following seven performance measures related to Operations’ employees’ processing of
disability and retirement workloads.

1. Minimize the average processing time for initial disability claims to provide timely
   decisions.

2. Improve service to the public by optimizing the speed in answering 800-number
   calls.

3. Improve service to the public by optimizing the 800-number busy rate for calls
   offered to Agents.

4. Process SSI non-disability redeterminations to reduce improper payments.

5. Number of periodic continuing disability reviews processed to determine continuing
   entitlement based on disability to help ensure payment accuracy.

6. Percent of SSI payments free of overpayment and underpayment error.

7. Percent of Old-Age, Survivors and Disability Insurance payments free of
   overpayment and underpayment error.

We also believe SSA should report the overall processing time for disability claims. In
response to a 2008 OIG report, 16 SSA agreed this performance measure would be
useful to the Agency, Congress, the public, and disability claimants. A Department of


13
     OMB M-09-15, supra, Section 2.8g.
14
  Ibid. According to the OMB guidance, in addition to reducing the burden on grant recipients and
contractors, use of existing measures will allow the public to see the marginal performance impact of
ARRA investments.

15
     OMB M-09-15, supra, Section 1.2.

16
     SSA, OIG, Disability Claims Overall Processing Times (A-01-08-18011), December 2008.


The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)                                     7
Veterans Affairs program-specific plan includes two similar measures that assess the
impact of ARRA funds on the timeliness of processing disability claims. 17

Operations’ new hires and employees working overtime may use ARRA funds that
impact the above performance measures. The new hires may not have a significant
impact initially because they require training. However, SSA should realize substantial
benefits from the 1,531 employees after their training is completed, especially in
FY 2010. Accordingly, SSA should develop performance measures that disclose these
impacts to the public.

In response to our draft report, SSA stated it agreed there are additional performance
measures it could use. However, SSA believes the number of retirement and survivors
claims processed has the greatest impact and visibility with the American public.




17
  Department of Veterans Affairs, Recovery Act Program-Specific Plan, Veterans Benefits Administration,
Hiring Temporary Claims Processors, May 2009.

The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)                                  8
                                   Matters for Consideration
ARRA provided SSA with $500 million to help address the increasing disability and
retirement workloads. SSA allocated $251 million of these funds to Operations.
Operations has hired 1,531 employees, established a tracking mechanism to account
for these employees, and established an Internet site to provide transparency to the
public in how it uses ARRA funds. To ensure SSA fully complies with OMB’s guidance
for establishing adequate performance measures and tracking the impact of the ARRA
funding, we believe SSA should consider:

• Disclosing that its methodology will result in ARRA funds being charged
  approximately $94 million more than the new hires’ actual salaries and benefits.

• Disclosing the costs associated with new hire training since it is time spent in training
  rather than processing disability and retirement workloads.

• Tracking and reporting how ARRA funds used for new hires and overtime in
  Operations will impact the Agency’s existing performance measures related to
  processing disability and retirement workloads.

In response to our draft report, SSA modified its Disability and Retirement Workload
plan to disclose the impact of charging an average workyear cost and the training costs.
However, SSA did not include additional performance measures related to processing
disability and retirement workloads. The Agency’s comments are included in
Appendix C.




The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)                       9
                                            Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – The Social Security Administration’s Statement of Agency Position

APPENDIX D – The Social Security Administration’s Disability and Retirement
             Workload Plan

APPENDIX E – OIG Contacts and Staff Acknowledgments




The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)
                                                                      Appendix A

Acronyms
ARRA                American Recovery and Reinvestment Act of 2009

FASAB               Federal Accounting Standards Advisory Board

FY                  Fiscal Year

OIG                 Office of the Inspector General

OMB                 Office of Management and Budget

Operations          Office of Operations

SSA                 Social Security Administration

SSI                 Supplemental Security Income




The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)
                                                                                   Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed the American Recovery and Reinvestment Act of 2009 (ARRA) and the
    Office of Management and Budget’s guidance on implementing ARRA.

•   Interviewed Social Security Administration (SSA) employees from the Offices of
    Operations and Budget, Finance and Management.

•   Reviewed SSA’s Agency-wide and program-specific ARRA plans to evaluate its
    efforts to implement and administer the $251 million allocated to Operations.

We performed our review during April through October 2009 in Richmond, California.
We conducted our review in accordance with the President’s Council on Integrity and
Efficiency’s 1 Quality Standards for Inspections.




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
110-409 § 7, 5 U.S.C. App. 3 § 11.


The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)
                                                                             Appendix C

Statement of Agency Position
                          STATEMENT OF AGENCY POSITION

THE OFFICE OF THE INSPECTOR GENERAL (OIG) QUICK RESPONSE
EVALUATION, “THE OFFICE OF OPERATIONS’ STAFFING PLANS UNDER THE
AMERICAN RECOVERY AND REINVESTMENT ACT OF 2009” (A-09-09-29157)

We appreciate the insights OIG offers in its Quick Response Evaluation and the Evaluation’s
recommendation for additional disclosure and transparency in documenting our use of American
Recovery and Reinvestment Act (ARRA) workload funding. In fact, we have updated our
planning documents to clearly describe the agency’s methodology for both budgeting and
accounting for our ARRA funds.

Our understanding is that OIG agrees that the updated plans are sufficiently transparent and
informative. Our updated plan is available to the public through our public website at
SocialSecurity.Gov.

We considered OIG’s observation that we could use additional performance measures.
However, we believe the measures in our planning document have the greatest impact on and
visibility to the American public.

Finally, the ARRA gave us $500 million to process the increased number of retirement and
disability claims and appeals we are seeing because of the economic downturn and the beginning
of the baby boomer retirement wave. In fiscal year (FY) 2009, we used a significant portion of
the ARRA funding to increase our workload processing capacity, which allowed us to hire over
2,400 new employees and provide additional overtime. In FY 2009, ARRA funds enabled the
agency to process an additional 33,000 hearings, 53,000 initial disability claims, and 317,000
retirement and Supplemental Security Income aged claims.

Retirement and disability workloads are not standalone workloads that new employees can
process independently. Instead, they perform some of the many tasks involved in processing
claims and appeals to completion alongside other employees. Attributing only the salary/benefit
costs of new employees hired with ARRA funds would understate the cost of processing these
workloads. Therefore, to determine the cost of processing the additional workloads funded by
ARRA, we calculated the costs attributed to all employees involved in completing these
workloads. Please note that, in calculating costs, we only included direct salary and benefit
expenses for employees involved in handling these workloads. No other expenses, such as
travel, space, or overhead, were charged to ARRA funding.




The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)
                                                                      Appendix D

Disability and Retirement Workload Plan




The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)           D-1
The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)   D-2
The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)   D-3
The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)   D-4
The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)   D-5
The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)   D-6
The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)   D-7
The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)   D-8
The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)   D-9
The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)   D-10
The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)   D-11
The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)   D-12
                                                                      Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts
   James J. Klein, Director, San Francisco Audit Division

   Joseph Robleto, Audit Manager

Acknowledgments
In addition to those named above:

   Jim Sippel, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-09-29157.




The Office of Operations’ Staffing Plans Under ARRA (A-09-09-29157)
                             DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
